No. _____
IN THE

Supreme Court of the United States
POSTMATES, LLC (F/K/A POSTMATES, INC.),
Petitioner,
v.
WENDY SANTANA,
Respondent.

CERTIFICATE OF SERVICE

I hereby certify that I am a member in good standing of the bar of this Court and
that on this 13th day of September, 2021, I caused three copies of the Petition for a Writ
of Certiorari to be served by third-party commercial carrier on the counsel identified
below, and caused an electronic version to be transmitted to the counsel identified
below, pursuant to Rule 29.5 of the Rules of this Court. All parties required to be served
have been served.
Counsel for Respondent:
R. Rex Parris
rrparris@parrislawyers.com
Kitty Kit Szeto
kitty@parris.com
John M. Bickford
jbickford@parris.com
Michelle J. Lopez
mlopez@parris.com
Ryan Andrew Crist
rcrist@parrislawyers.com
PARRIS Law Firm
43364 10th St. W.
Lancaster, CA 93534
Tel.: 661.485.2072

Clerk of Court
Re: Case No. CGC-18-567868
CIVIL DIVISION, SUPERIOR COURT OF
CALIFORNIA, COUNTY OF SAN FRANCISCO
400 McAllister St., Room 103
San Francisco, CA 94102-4514
(415) 551-4000

Theane D. Evangelis

